SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
CAROLYN TAFT GROSBOLL
Clerk of the Court

April 17, 2020

(217) 782-2035
TDD: (217) 524-8132

FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185

Philip Duncan Payne
Office of the State Appellate Defender
203 N. LaSalle Street, 24th Floor
Chicago, IL 60601
In re:

People v. Garza
124592

Today the following order was entered in the captioned case:
Motion by Petitioner for leave to file a motion for reconsideration of the
order denying petition for leave to appeal and for a supervisory order
remanding to the Appellate Court for reconsideration in light of People v.
Buffer, 2019 IL 122327, and People v. Holman. 2017 IL 120655. Denied.
Order entered by the Court.
This Court’s mandate shall issue in due course to the Appellate Court, First
District.
Very truly yours,

Clerk of the Supreme Court

cc:

Appellate Court, First District
Attorney General of Illinois - Criminal Division
State's Attorney Cook County

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035
FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185

March 25, 2020
In re:

Peopie State of Illinois, respondent, v. Javier Garza, petitioner.
Leave to appeal, Appellate Court, First District.
124592

The Supreme Court today DENIED the Petition for Leave to Appeal in the above
entitled cause.
The mandate of this Court will issue to the Appellate Court on 04/29/2020.

Very truly yours,

Clerk of the Supreme Court

*' •

NOTICE

2018 ILApp (1st) 1152041-U

The text of this order m@y
be changed or cforiwtsd
prior to the time for filing of
a Petition for Rehearing Of
the disposition of the saw®/

No. 1-15-2041
Order filed September 26, 2018
Modified upon denial of rehearing January 23, 2019
Third Division

NOTICE: This order was filed under Supreme Court Rule 23 and may not be cited as precedent
by any party except in the limited circumstances allowed under Rule 23(e)(1).

IN THE
APPELLATE COURT OF ILLINOIS
FIRST DISTRICT

THE PEOPLE OF THE STATE OF
ILLINOIS,

)
)
)

Plaintiff-Appellee,

)
)

v.

Appeal from the
Circuit Court of
Cook County.
No. 13 CR9116

)
)

JAVIER GARZA,

)
)

Defendant-Appellant.

Honorable
James B. Linn,
Judge, presiding.

)

JUSTICE COBBS delivered the judgment of the court.
Presiding Justice Fitzgerald Smith and Justice Howse concurred in the judgment.
ORDER

41

Held: Defendant's sentence did not violate the eighth amendment of the United States
Constitution or the proportionate penalties clause of the Illinois Constitution and
the new juvenile sentencing provision allowing for firearm enhancements to be
discretionary is inapplicable to defendant's sentence.

12

Following a bench trial, defendant, Javier Garza, was convicted of first-degree murder
(720 ILCS 5/9-1(A)(1) (West 2012)), aggravated battery (720 ILCS 5/12-3.05 (e)(1) (West
2012)), and three counts of aggravated discharge of a firearm (720 ILCS 5/24-i.2(a)(2)

No. 1-15-2041
(West 2012)), and sentenced to 51, years' imprisonment. On appeal, he argues, that his
sentence violates the eighth amendment of the United, States. Constitution and the
proportionate penalties clause of the Illinois Cpnstitution. He further contends that his -case
should be remanded for resentencing under; new sentencing provisions contained in Public
Act 99-69, section 10 (eff. Jan 1. 2016) (adding 730 ILCS 5/5-4.5-105), which .became
effective during the pendency of his appeal. He maintains that the new provisions apply
retroactively and he is entitled to a new sentencing hearing because the provisions allow the
sentencing court to use its discretion in meting put firearm enhancements when sentencing
defendants who were minors at the time of their offense.. For the reasons that follow, we
affirm.

13

I. BACKGROUND

14

The facts adduced at trial are as* follows. On April 7, 2013, .the victims Emily Guerrero,
Pablo Juarez, Alec Esparza, .Alyna Esparza, and Michael Orozco, all between the ages of 13
and 15, met at Varraga Park and decided to get ice cream. The* ice cream shop was located On
Cermak Road and Leavitt Street. The group of teenagers walked north on Leavitt towards
Cermak, and as the group approached 22nd Place, a green minivan pulled up; across the street
from them, and stopped at the stop sign. The three individuals inside the minivan were Jamie
Almarez, 90-defendant, the driver, Damien Garza age 19, and defendant age. 17. Defendant
and Damien Garza1, both members of the Latin Saints gang, presented gang signs at the
group to show disrespect to a rival gang, the Satan Disciples. .In response, Michael Orozco,
an, associate of the Satan Disciples, stepped towards the minivan while shouting and
presented gang signs at the vehicle.

1

Damien Garza is not a party to this appeal and has a separate pending appeal docketed as" No. 1-15-2324.
-2-

No. 1-15-2041

15

Defendant opened the minivan sliding door, stepped out of the minivan and shouted out
"D.K."2 He then pulled out a black handgun and fired three to four shots at the group of
teenagers.Emily,Pablo,Alec-'Alyna and Michael all ran away from the gun fire' Defendant
stopped shodtingV g6t‘:into;''lhe;,fftiM^aii,v arid" Damien -drove north. Three bullets struck
Michael in the back. The' group of teenagers looked back arid observed that Michael was on
the' ground. Eftiify and Alyria calledr911< and1 stayed'with Michael. Pablo and Alec ran to
Michael's house to tell Michael's family about the shooting. Michael's father and brother
arrived at the scene to find Michael lying on the ground with gunshot wounds to his back.
The paramedics arrived -and placed Michael in an ambulance and transported him to the
hospital. When Michael's father arrived at the hospital he learned that Michael had died from
his wounds.

16

1

After the paramedics left the Scene of the incident, Emily noticed she had a "piece of
metal" in her leg. She pulled out : the mdtal fragment from her leg and dropped it on the
ground. Emily's parents took herto the hospital worried that she might still have metal iri her
leg.

17

Officers Manuel Hernandez and Waqar Mian were driving south on Loomis Street,
approaching Cermak in an unmarked squad car when they received a call on the police radio
about a shooting, as well as a description of a green minivan traveling east on Cermak. The
officers passed, a green minivan at the comer of Cermakand Wood Street, made a U-turn,
activated their emergency lights and sirens, and began driving toward the minivan. The
minivan accelerated and sped through traffic passing cars on the right and "squeezing in
between the normal traffic and parked vehicles." Subsequently, the minivan crashed into a

2 D.K. is understood to mean Disciple Killer. " :
-3-

No. 1-15-2041
group of parked cars at high impact. The pfficers, positioned the squad car against the
minivan to prevent escape.

1f8

r

Officer Hernandez drew his weapon and orderedrDamien to get put,of the minivan with
his hands up. Officer Mian approached the passenger .si.de of the minivan, observed^ Damien
in the driver's seat, defendant in the rear behind the-.driver's,-seat,->and Jamie Almarezpn.the
, front passenger seat. Officer Hernandez also, observed defendant in the back ofthe minivan.
Officer Mian removed defendant and Jamie? Almarez from the minivan and found a
"semiautomatic blue steel weapon underneath the driver's seat." Officer, Hernandez and
Officer Mian detained Damien, defendant, and Jamie Almarez.. Other police officers Jbrought
Emily and Alyna to the minivan crash site. Both teenagers identified .defendant mid Damien
as the individuals involved in the shooting.

19

t- .

Pablo went to the police station where-he viewed a-physical; lineup and identified
defendant as the shooter, Alec spoke to the police about the event; however, he was unable to
identify an offender frpm a physical line up. Two other witnesses!, Edward Dominguez,, and
Jessica Contreras, viewed a physical line up. Dominguez identified Damien as the shooter
based on his clothes, but he indicated he had not seen, defendant's face at the time of the
shooting. Contreras spoke with detectives and. an Assistant State's Attorney at the police
station, and she identified Damien as the driver of the green minivan.

110

Four discharged cartridges; two fired bullets, , and several metal bullet fragments were
recovered from the scene of the shooting. The gun was,,recovered from the minivan. A fired
bullet was recovered during Michael's autopsy. A firearms examiner concluded that all the
discharged materials were fired from the gun recovered from the minivan. A gunshot residue
test performed on defendant's right hand tested positive for gunshot residue.
-4-

No. 1-15-2041
Ill

Detective Roger Murphy, an expert" on street gangs, was assigned to investigate the
shooting of Michael Orozco. At trial, Detective Murphy testified about gangs in Chicago and
then identified^ defendant and'Daihi'en's tattoos aS signifying membership in the Latin' Saints
street gang.- MUrphy'identified a-number of videos showing interviews and statements of
Darnien While he'Was held in an ihterrogatidn foom. In one segment, Damien admitted he
was'driving the van to look for Satan Disciples in rival territory, as they had been ordered to
••

•

•

.

. f.

■ do st) by a gang leader earlier in the day. The gang leader had urged defendant to avenge the
death of his father on his birthday.
112

The trial judge found defendant'guilty of all'charges and found that he personally
discharged the firearm. The presentence investigation report reflected that defendant had two
prior juvenile adjudications: one for battery and one for possession of cannabis. The report
• also1 reflected that defendant's father was shot and killed ih 2001 by a member of a different
streetigang and this event destabilized his family-and-'left him without a male role rnUdel. In
addition, the investigation report rioted that defendanfhas one daughter who was nine months
old at the time of his arrest.

113

^

.

At the sentencing hearing; the State presented victim irripact statements from Alyna
Esparza and Marisol Martinez, Michael Orozco's mother. The State further emphasized the
"absolute senseless, mindless violence" reflected in this crime. The defense presented
mitigation testimony from defendant's mother:‘After considering the factors in aggravation
and mitigation, the judge imposed the minimum sentences of 45 years for murder, 5 years for
the aggravated discharge of a weapon to run concurrently and 6 years Tor the aggravated
battery with a firearm to run consecutively. This appeal followed.

If 14

•=• ' II. ANALYSIS

No. 1-15-2041
115
116

A. Constitutionality of Sentence
,Defendant who was \1 years old at the time^of his, offense, first contends that the trial
court's, imposition of an aggregate 51-year sentence amounts .to a de facto life sentence in
violation of the eighth amendment of the United States Constitution. ! Defendant further
asserts that his sentence was imposed without consideringWtffer v. Alabama, 567-U>$.* 460
(2012).3 The State responds that defendant's as applied challenge is improper because he
failed to fust raise his constitutional challenge at the trial court and therefore has, forfeited
review of his claim. The . State cites People v. Thompson, 2015 IL 118151 as support.
Defendant replies that the State misconstrues Thompson and, contends that review here is
proper.

117

In Thompson,, the court determined that an • as-applied constitutional ■ challenge is
dependent on the facts and particular circumstances of the.challenging .party. 2015 IL 118151
1 36. Such a challenge requires that the record be sufficiently developed in terms of those
facts .and circumstances for the purposes of appellate review. M l 37. However, "[w]hen
considered as a whole, Thompson implies that courts must overlook forfeiture and review
juveniles' as-applied eighth amendment challenges under Miller, notwithstanding the general
rule prohibiting as-applied challenges raised for the first time on appeal." People v, Nieto,
2016 IL App (1st) 121604, 1 35. We agree with Nieto and will not: depart from its
interpretation of as-applied eighth amendment challenges with respect to juveniles under
Miller. We also find the same rationale applies under a proportionate penalties challenge.
Therefore, we find that defendant's as-applied challenges have not been forfeited.

f 18

1. Eighth Amendment
3 In Miller v. Alabama, 567 U.S. 460 (2012) the Supreme Court held that the sentencing schemes that mandate
natural life in prison without the possibility of parole for juveniles violate the eighth amendment.
- 6-:

No. 1-15-2041
119

The eighth amendment to the United States Constitution prohibits "cruel and unusual
punishment" and i's applicableTo the states through the fourteenth amendment. U.S. Const.,
amends. VIII, XTty; vP&ople'-

• IL~ 115595^ Tf 18. The heart of the eighth

amendttieht's protectibnTs the-basic'principle that "criminal punishment should be graduated
and proportioned to both the offender and the offense." Davis, 2014 IL 115595, f 18 (citing
Miller v: Alabama, 567 U.S. 460, 469 (2012); Roper V. Simmons’, 543 U.S. 551, 560 (2005)).
In recent years the United States Supreme Court addressed a series of cases that involved the
risk of disproportionate punishment to juvenile offenders. See generally Montgomery v.
Louisiana, 577 U.S.

136 S. Ct 718 (2016); Miller v. Alabama, 567 U.S. 460 (2012);

Graham v. Florida, 560 U.S. 48 (2010); Roper v. Simmons, 543 U.S. 551 (2005).

II20

;In Mi//er, the Court held ;that mandatory life imprisonment without the possibility of
parole for individuals under the age'of 18, at the time the crime was committed, violates the
eighth amendment. 567 U.S.< 489-90. Subsequently, in Montgomery, the Supreme Court held
that the basic precept of the Miller holding applies retroactively to juvenile offenders serving
mandatory life sentences. Montgomery, 577 U.S.

H 21

136 S.Ct. at 733-34.

Our supreme court in People v. Holman, set forth guidelines for applying Miller to
juvenile offenders. 2017 IL 120655, ^ 40. The court recognized that "[t]he greater weight of
authority has concluded that Miller and Montgomery send an unequivocal message: Life
sentences, whether mandatory or discretionary, for juvenile defendants are disproportionate
and violate the eighth'amendment, unless the trial courts consider youth and its attendant
characteristics." Id. The court fashioned a criteria for trial courts to follow with respect to
considering a defendant's youth and .its attendant characteristics. Id.

46. The attendant

characteristics which a sentencing court should consider, include, but are not limited to, the
-7-v

No. 1-15-2041
following: "(1) the juvenile, defendant's chronological .age at the time of the offense and any
evidence of his particular immaturity, impetuosity,and failure to appreciate risks and
: consequences; (2) the juvenile defendant's family; and home;environment; (3),the juvenile
defendant's.* degree of participation in the .homicide and any evidence- -of familial bitpeer
pressures that nmy have affected him; (4) the juvenile ^defendant's. incompetence, including
his inability to deal with police officers or prosecutors and his1 incapacity to assist his own
f

.

attorneys; and (5) the juvenile defendant's prospects for rehabilitation. [Citation.]." Id. ;
H 22

Defendant argues that his 51-year sentence amounts to a de facto life sentence because
there is a possibility that he may not outlive his’ sentence; This court has rejected the claim
that a juvenile offender who is eligible to be released in the offender's sixties is sribject to a
de facto life sentence. See People v. Rodriguez, 2018 IL App (1st) 141379-B (50 'years'
imprisonment riot de facto life, allowing for release at 65)-, People v: Hoy, 2017 IL App (1st)
142596, If 46 (52 years' imprisonment not de facto life; allowing for release by 68); People v.
Evans, 2017 IL App (1st) 143562, 1f| 15-16 (45 years' imprisonment not de facto life,
allowing for release at 62); People v. Jackson, 2016 IL App (1st) 143025, ][10, n.6 (50 years'
imprisonment not de facto life, allowing for release at 66); People v. Applewhite, 2016 IL
App (1st) 1420330, If .16 (45 years' imprisonment not de facto life, allowing, for release at
62); but see People v. Buffer, 2017 IL App (1st) 142931 (50 years' imprisonment is de facto
life).

H 23

Defendant relies on People v. Buffer, 2017 IL App (1st) 142931, to support his’ contention
that his sentence was a de facto life sentence. In Buffer, the 16-year-old defendant‘ was
convicted of murder for shooting the victim and personally discharging the firearm that
caused the victim's death. Buffer, 2017 IL App (1st) 142931, f 3. The defendant was
-8-

No. 1-15-2041
sentenced to 25 years for murder plus =& mandatory 25 year firearm enhancement for a total of
50 years' imprisonment. Id. ffi 26,42. While the defendant's case was pending, the United
States1 Supreme . Court decided'Milleri: Id.ff^>29,'31. The defendant filed a post bonviction
appeal arguing' tfaathis •50 -year -sentence .was' a. de facto life sentence that violated the eighth
^ amendment of the .United’iStatesi Constitution and the Illinois Proportionate Penalties Clause.
We determined that the defendant's 50-year sentence was a mandatory de facto life sentence
and the sentence did not comport with the sentencing factors imder Miller and thus, violated
the eighth amendment. Id. f 62, In so holdings we relied on judicial notice of the EDOC
website, statistics, , and other state supreme court decisions to reach our conclusion. Id.
Furthermore, in coming to our decision that the sentence violated the eighth amendment, we
assessed the record and, found, that the trial court, did not. take into account "how children are
, different, and how those differencescounsel against irrevocably sentencing them to a lifetime
in prison.'" Jd.!\ 63 (quoting Montgomery, 57.7 U.S. at

_, 136 S. Ct. at 733 (quoting

Miller, 561 U.S. at All-19))

124

Our decision here does run afoul of out holding in Buffer. The court In Buffer determined
that the trial court erred in its examination of the defendant’s mitigating evidence; Id. We
held- that the trial court's reasoning did not comport with: the juvenile sentencing factors
recited in Roper, Graham, Miller and Montgomery. Id. We specifically noted that "those
cases require that the sentencing court take into account (1) a child's diminish culpability and
heightened capacity for change; (2) the fact thah children are immature, irresponsible,
reckless, impulsive, and vulnerable to negative influences; and (3) that they lacked control
over their enviropment and the ability to extricate themselves from crime-producing
circumstances." Id. However, in Buffer we did not have the guidance of Holman, a case that
- 9-3 -

No. 1-15-2041
our; supreme court decided after Buffet, which* inter. alia,, instructed .the courts on ho.w to
apply Miller to discretionary life .sentences with respect to;juvenile'offenders> Holman, 2017
IL 120655, Tf 40.

H 25

We find, consistent with Holman, ..that the trial , cpurt properly considered defendant's
youth , and its attendant characteristics in-fashioning his sentence. .Here, the trial court "
considered defendant's age. and home environment. The trial court noted that defendant did
not suffer from abuse or neglect and there is, no indication that there was drug or alcohol
abuse in the home. The trial court also considered defendant's participation in the offense,
namely that defendant was the gunman and engaged in ."neighborhood terrorism and it [was]
extreme." The trial court further found that defendant was not in any way incompetent, nor
did defendant have a history of mental,health issues. Finally, ;the trial .court considered
defendant's rehabilitative potential, and determined that defendant's shopting of the victims
justified the sentence. The record is clear that defendant received a sentencing hearing that
complied with Miller and therefore defendant'ssentence did. not violate the eighth.
amendment.

1f 26

Accordingly, ip light of Holman, we conclude that the trial court prpperly considered
defendant's youth and its attendant characteristics in fashioning his sentence. Thus,
defendant's sentence does not violate the eighth aiuendment.

127

Next, defendant asserts that the mandatory minimum sentence of 45 years imposed on
juveniles 15 years or, older convicted of first degree murder is unconstitutional as applied to
juveniles. We presume that defendant is actually asserting a facial challenge by arguing that
no application of .this statute is constitutional for juvenile offenders. However, because we

-10 -

No. 1-15-2041
found that his as-applied challenge'is constitutional we need not address defendant's facial
challenge. Horvath v. White; 3581111 App. 3d 844, 854 (2005).
128
129

2. Proportionate Penalties
‘ ^Defendant - argiids 'that his'aggregate sentence of 51 years' imprisonment violates the
proportionate penalties clause of the’ Illinois Constitution. Furthermore, defendant argues
that the5 proportionate penalties clause provides more protections than the eighth amendment.
The state contends that the proportionate penalties clause and the feighth amendment are coextensive. We agree with defendant that the'proportionate penalties clause grants broader
protections to offenders. See People v. Gipson, 2015 IL App (1st) 122451, H 69, 70 (holding
that the proportionate penalties clause of the Illinois Constitution is not in lockstep with the
eighth amendment). Thus, we review’the claim for state constitutional error.

130

; The proportionateTpenalties'clhuse of the'Illinois Constitution provides that "[a]ll
penalties shall be determined both according to the seriousness of the offense and with the
objective of restoring the offender to useful citizenship." Ill. Const. 1970, art. I § 11. A
defendant who challenges a sentence under the proportionate penalties clause "contends that
the penalty in question was riot determined according to the seriousness of the offense."
People v. Sharpe, 216 Ill. 2d 481, 487 (2005).

131

/

■

Illinois courts recognize three different forms of proportionality review. People v. Miller,
202 Ill. 2d 328, 338 (2002).
• "A statute may1 be deemed Unconstitutionally disproportionate if (1) the punishment for
the offense is’cruel, degrading, or so wholly disproportionate to tlie offerise as to shock
the moral serise of the community; (2) similar offenses are compared and the conduct that

- IT-

No. 1-15-2041

.‘i

, creates, a less serious threat to, the public health and safety is .punished more harshly; or
(3) identical offenses are given different sentences."'Id.
.

132

To succeed on his claim, defendant must show-that "die Sentence imposed is: cruel,
degrading, or so wholly disproportionate to the offence as To: shock* die moral Sense jof the
community. People v. Hoy, 2017 IL App''(1st)'142596,-1 48'(Internal qUdtatibri marks
omitted.). "To determine whether a penalty'shocks nthe moral sense of the community, we
must consider objective evidence as well as,the community's changing standard of moral
decency." People v, Hernandez, 382 Ill. App. 3d 726, 727 (2008).

f 33

Defendant contends that his sentence violates the proportionate penalties clause because
it was imposed without appropriate considerations of his youth and attendant circumstances.
Defendant further argues that his culpability was diminished because he' was negatively
influenced by others. Citing People v. Gipson; 2015' IL -App (1st) 122451 as support,
defendant, maintains that his violent actions were motivated by his desire to impress and
appease the authority figures in his gang.

134

We find defendant's reliance to Gipson unavailing. In Gipson, the court determined that
the juvenile's sentence violated'the proportionate penalties clause and reversed and remanded
for a retroactive fitness hearing. 2015 IL App (1st) 122451, \ 80. In doing so, this court
strongly relied on the juvenile defendant's history of mental illness, his impulsive behavior,
and that he may have been motivated by a desire to impress his older brother. Id. 1f 73.

135

■ Here, unlike Gipson, therewas no sign that defendant suffered from a mental illness or
that he-was in need of mental health-treatment at the time of the offense or at the time of
sentencing. Defendant's argument that he intended to impress authority figures in his gang
may be true, however, it is not a relevant factor in our proportionality analysis. Further, the
-12-

No. 1-15-2041
record shows that defendant had positive influences in his life-such as his mother and other
family members that he ignored arid chose to pursue a gang lifestyle. Defendant's culpability
is not diminished because he .chosC!to ..f0Uow.b|td influences. Defendant armed himself with a
gun and drove around neighborhoods widi his companions seeking out rival gang members.
He and Damien instigated a-1 confrontation with unsuspecting teenagers. Defendant then
escalated the confrontation by discharging his firearm into the crowd of teenagers.
136.

. As previously stated, the trial; court appropriately considered defendant's youth and
attendant circumstances when imposing the sentence. Given the seriousness of the offense
and the manner in which defendant shot at the .group; of teenagers fatally striking Michael
Orosco,-we are hard pressed to conclude that his sentence is so wholly disproportionate to the
. offense as to shock the moral sense of .the community.

137

.

, ; : - ; As we have determined .'that ; defendant's sentencing does not violate- the -proportionate
penalties clause of the Illinois Constitution .as applied to him, we need not address the facial
challenge. See City of Chicago v. Alexander, 2015 IL App (1st) 122858-B, ^125.

138
139

B. 730ILCS .5/5-4.5-105
: Defendant argues that he is entitled to a new sentencing hearing under 730 ILGS 5/5-4.5105(b) the discretionary firearm enhancement provision, because his case "was pending on
direct appeal when the law was enacted.- Defendant acknowledges in his reply brief that
pursuant to People v. Hunter, 2017 IL 121306,' which was decided during the pendency of
-this appeal,* that 730.ILCS.5/5^4.5405 (b) does not apply retroactively to sentences issued
before the law came into effect.* 2017 IL 121306, f 48; Therefore, we need not address this
argument. .

140

III. CONCLUSION
-13.-, .

t

.M

* .*

No. 1-15-2041

'

■ r>

V

T

141

For the reasons stated, we affirm the judgment of the circuit court of Gook County
•r

r

142

*

*

Affirmed.
t:

:*

roviv-.

,• r. ; •

• ,

r-r 2

v i-'

• -<x

j

\

-.•rtj ■.?&’ :--V

;w

V:'-

• J

•'.t-

■

.A

i

h..

,V

•;

•!

;
i-

C

i

:
‘7'

.1 ■

!

T

;
;

:
H

r
t

i,

:• .
t

14 - ,

■o

■

J

